Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




DEFICIENCIES IN THE 340B DRUG
DISCOUNT PROGRAM’S DATABASE




                    Inspector General

                      June 2004
                    OEI-05-02-00071
               Office of Inspector General

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and oper ations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees State Medicaid fraud control units, which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the
health care community, and issues fraud alerts and other industry guidance.
  '''''C''.


                    DEPARTMENT OF HEALTH &. HUMAN SERVICES                                        Office of Inspector General

.(i' "J(J
                                                                                                  Washington , D. C.   20201




                                                                JUN   1 4   2004




              TO:                     Elizabeth M. Duke , Ph.
                                      Administrator , e Ith Res             nd     ces Administration
              FROM:                   George Grob

                                      Assistant Deputy Insp ctor General
                                        for Evaluation an nspections
              SUBJECT:                OIG Final Reports: " Appropriateness of 340B Drug Prices
                                      OEI - 05- 02- 00070
                                       Deficiencies in the 340B Drug Discount Program s Database
                                      OEI - 05- 02- 00071


              The attached final inspection reports focus on the administration of the 340B Drug
              Discount Program. We conducted these inspections because of concerns about the
              appropriateness of prices that 340B covered entities are paying for outpatient drugs
              and the efficiency of the program s administration.

              Appropriateness of 340B Drug Prices (OEI- 05- 02- 00070) reveals that entities
              participating in the 340B Drug Discount Program did not receive the correct
              discount for 31 percent of sampled drug purchases made in September 2002. Based
              on this sample , we estimate that 340B entities spent $41.1 milion more that month
              on prescription drugs. The Health Resources and Services Administration (HRSA)
              does not have a process for ensuring that entities enrolled in the program receive the
              appropriate discount. Moreover , entities do not have information needed to verify
              that they pay the statutory price. Lastly, there is no match of HRSA' s 340B ceiling
              price data to the manufacturers ' data to detect and resolve discrepancies upfront.

              To improve the integrity of the 340B program , HRSA should spot check entity- level
              transactions. HRSA should also seek legislative authority to establish penalties for
              violations of the Public Health Service Act (PHS Act). We also recommend that
              HRSA provide entities with data to approximate their discount. Finally, HRSA
              should verify their 340B prices against the manufacturers ' prices.

              In the agency response , HRSA agreed with the objectives of our recommendations.
              HRSA stated it is considering a number of activities in an effort to achieve
              systematic monitoring of manufacturer compliance with the pricing formula in the
              340B statute. We look forward to receiving the results of these efforts. HRSA does
              not support our final recommendation to develop a legislative proposal to establish
              penalties for violations of the 340B statute at this time , and prefers to evaluate the
              impact ofthe ultimate action plan before taking legislative action. We understand
Page 2 - Elizabeth M. Duke , Ph.

this approach , but believe that the abilty to impose fines and civil penalties is
essential in ensuring that entities receive the full 340B discount.

Deficiencies in the 340B Drug Discount Program's Database                    (OEI- 05- 02- 00071)
found that the poor qualty of the Pharmacy Mfairs Branch' s database interferes
with the successful administration of the 340B Drug Discount Program. The
database s quality is deficient in three ways. First , 38 percent of our sampled
entities were listed as enrolled in the 340B database , but reported not participating
in the program. Second , the addresses for 43 percent of sampled entities from the
340B database were incorrect. Third , the 340B database also excludes essential
billing and shipping information needed to verif a shipment's destination.
According to interviews with nine major pharmaceutical corporations , incorrect
information contained in the database undermines their efforts to prevent ilegal
sales of discounted products to ineligible entities.

To improve the integrity of the database , HRSA should develop a strategic plan to
better manage the 340B program data. We suggest                     HRSA's plan include:    (1) a
revalidation of all current information in the database; (2) an annual recertification
process for entities participating in the discount program; (3) a separate listing of
newly added or deleted entities; (4) a standard reporting format for entities
addresses; and (5) an additional field to designate entities with contracted pharmacy
arrangement.

HRSA' s comments describe the action already taken to improve the integrity of the
340B database , but mention the impact budgetary limitations have on the agency
ability to commit to a timetable for full implementation. We encourage HRSA to
optimize its Pharmacy Services Support Center contract as a means to move toward
complete action. Concurrently, we anticipate that HRSA wil determine       Federal       if a

Recister notice to announce a new annual certifcation requirement is necessary.

Please send us your final management decision , including any action plan , as
appropriate , within 60 days. If you have any questions , please do not hesitate to call
me or one of your staff may contact Elise Stein , Director , Public Health and Human
Services Branch , at 202- 619-2686 or through e- mail (Elise.stein oig. hhs. govl To
faciltate identification ,             please refer to report numbers OEI - 05- 02- 00070 and
OEI - 05- 02- 00071         in all correspondence.

2 Attachments

Final Report - "Appropriateness of 340B Drug Prices " OEI - 05- 02- 00070

Final Report - " Deficiencies in the 340B Drug Discount Program s Database

                OEI - 05- 02-00071
� A                B S T R A C T 





                               Section 340B of the Public Health Service Act (the PHS Act) created the
                               340B Drug Discount Program to lower drug prices for over 10,500
                               entities, including community health centers, public hospitals, and
                               various Federal grantees. The Health Resources and Services
                               Administration’s (HRSA’s) Pharmacy Affairs Branch (PAB) administers
                               the program for the 10,500 enrolled entities, estimated to spend $3.4
                               billion on drugs in 2003.
                               The PHS Act required PAB to maintain an electronic listing of all the
                               entities enrolled in the 340B discount. Pharmaceutical manufacturers
                               refer to the listing to verify entities’ eligibility for the discount and to
                               ensure that their drugs are only shipped to legitimate sites. Due to the
                               importance of the database, we reviewed the quality and timeliness of
                               its information.
                               We found that the poor quality of the Pharmacy Affairs Branch’s (PAB)
                               database interferes with the successful administration of the 340B Drug
                               Discount Program. Thirty-eight percent of our sampled entities were
                               listed as enrolled in the 340B database, but reported not participating
                               in the program. The database also had incorrect addresses for 43
                               percent of sampled entities. We also found that the database does not
                               provide essential information on the entities’ billing and shipping
                               arrangements. According to interviews with nine major pharmaceutical
                               corporations, the extent of incorrect addresses listed in the database
                               hinders their ability to effectively identify entities eligible for the
                               discount program.
                               We recommend that HRSA develop a strategic plan for improved
                               management of the 340B database. We suggest this plan include:
                               (1) a revalidation of all current information in the database (2) an
                               annual recertification process for entities participating in the
                               discount program (3) a separate listing of newly added or deleted
                               entities (4) a standard reporting format for entities’ addresses and
                               (5) an additional field to designate entities with contracted
                               pharmacy arrangement.




 O E I - 05 - 02 - 0 0 0 7 1   DE F I C I E N C I E S   IN THE   3 4 0 B D R U G DA T A B A S E
                                                                                                         i
� E                X E C U T I V E                                         S U M M A R Y 





                               OBJECTIVE
                               To assess the accuracy of information contained in the Pharmacy Affairs
                               Branch (PAB) 340B Drug Discount Program's database.


                               BACKGROUND
                               The PAB in the Health Resources and Services Administration (HRSA)
                               is required to maintain a complete listing of all entities participating in
                               the 340B Drug Discount Program for pharmaceutical manufacturers
                               and wholesalers to use in verifying an entity’s eligibility to receive the
                               discount. It is crucial that the roster contain exact information on the
                               identity of the entities because it is the source wholesalers and
                               manufacturers consult to verify the entity’s participation in the
                               program, as well as its address. This inspection stems from
                               complications faced while attempting to extract a sample of providers
                               from the database for the inspection entitled "Appropriateness of 340B
                               Prices" (OEI-05-02-00070). Given the importance of the database, we
                               examined the integrity of the database and assessed the effects that
                               errors had on our work, as well as other end users.


                               FINDINGS
                               Thirty-eight percent of sampled entities are incorrectly listed in the
                               340B database as participating in the 340B Drug Discount Program.
                               Despite being listed in the 340B database as “participating” in the 340B
                               Drug Discount Program, 38 percent of our sample reported “not
                               participating.” Manufacturers reported that the correctness of an
                               entity’s eligibility status in the 340B database interferes with an
                               entity’s ability to purchase drugs at the 340B price.
                               The 340B database had incorrect address information for 43 percent
                               of sampled entities. Forty-three percent of the entities sampled from
                               the 340B database were listed with incorrect addresses. Incorrect
                               information in the database hinders pharmaceutical manufacturer’s
                               ability to verify entity enrollment and increases the risks for diversion.
                               The 340B database does not provide essential information on
                               entities’ billing and shipping arrangements. Manufacturers reported
                               that the absence of fields in the database that list both an entity’s
                               billing and a shipping address hinders their ability to verify that their

 O E I - 05 - 02 - 0 0 0 7 1   DE F I C I E N C I E S   IN THE   3 4 0 B D R U G DA T A B A S E
                                                                                                       ii
E    X      E      C       U      T   I      V       E              S   U       M      M      A     R        Y


                                          discounted products are going to eligible sites. The current design of the
                                          database only lists one address, but because of complex drug delivery
                                          and contracted pharmacy arrangements, the address listed may not be
                                          where the bill is sent or where the product is shipped.


                                          RECOMMENDATIONS
                                          To ensure accurate information on entities’ participation and
                                          location status, HRSA should develop a strategic plan for managing
                                          340B program data that:
                                          �        revalidates all of the current information in the database

                                          �	       requires all enrolled entities to resubmit their 340B registration
                                                   forms to PAB annually
                                          �	       creates a separate listing of entities newly added or deleted from the
                                                   roster each quarter to facilitate the efficient transmission of
                                                   information to the manufacturers
                                          �	       establishes a standard format for reporting entities' addresses,
                                                   which clearly identifies the appropriate “ship to/bill to”
                                                   arrangements and does not include post office boxes
                                          �	       creates a field that designates entities with a contracted pharmacy
                                                   arrangement


                                          AGENCY COMMENTS
                                          HRSA’s comments describe the action already taken to improve the
                                          integrity of the 340B database, but mention the impact budgetary
                                          limitations have on the agency’s ability to commit to a timetable for
                                          full implementation. We encourage HRSA to optimize its Pharmacy
                                          Services Support Center contract as a means to move toward complete
                                          action. Concurrently, we anticipate that HRSA will determine if a
                                          Federal Register notice to announce a new annual certification
                                          requirement is necessary .




    O E I - 05 - 02 - 0 0 0 7 1           DE F I C I E N C I E S   IN THE   3 4 0 B D R U G DA T A B A S E
                                                                                                                        iii
�   T A B L E             O F             C O N T E N T S 




         A B S T R A C T . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



         E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii



         I N T R O D U C T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1




         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

                     Database contains inaccurate entity addresses................................. 4


                     Database includes non-participating entities .................................... 5


                     Database does not include complete address information ............... 5




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

         A G E N C Y C O M M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8



         A P P E N D I X . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

                     Appendix A: Agency Comments ........................................................ 9


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12



         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

�       I N T R O D U C T I O N 



                              OBJECTIVE
                              To assess the accuracy of information contained in the Pharmacy Affairs
                              Branch 340B Drug Discount Program’s database.


                              BACKGROUND
                              This report stems from complications faced while attempting to use the
                              340B Drug Discount Program database of participants for the inspection
                              entitled "Appropriateness of 340B Prices" (OEI-05-02-00070). Efforts to
                              conduct a review of Health Resources and Services Administration’s
                              (HRSA’s) management of the 340B program were compromised by the
                              poor quality of the database. Because the success of the 340B program
                              depends on the accuracy of the information contained in the database, we
                              evaluated the overall condition of the database. This report demonstrates
                              the effects that deficient data has on the ability of the 340B Drug
                              Discount Program to operate efficiently.
                              The 340B Drug Discount Program
                              In 1992, Congress enacted Section 340B of the Public Health Service Act
                              (the PHS Act), establishing the 340B Drug Discount Program. This
                              Federal discount program requires pharmaceutical manufacturers to
                              lower outpatient drug prices for over 10,500 qualified Federal grantees,
                              including community health centers and public hospitals. To calculate
                              the 340B price, manufacturers adhere to a formula stipulated in the PHS
                              Act. The 340B price is a ceiling price, meaning it represents the highest
                              price the entity may be charged for that product, but does not limit sales
                              below the calculated price.
                              HRSA’s Pharmacy Affairs Branch (PAB) administers the 340B Drug
                              Discount Program. The 340B participating entities are estimated to
                              spend $3.4 billion for outpatient drugs in 2003.
                              The 340B Participant Database
                              Section 340B requires PAB to “maintain accessible data on the identity of
                              participating entities.” In 1993, PAB created an electronic bulletin board
                              representing the registration and certification of eligibility. Although an
                              entity may be eligible to participate in 340B by virtue of the grant it
                              receives, it must notify PAB of its intention to participate in the discount
                              program by completing and submitting the “340B Program Registration
                              Form for Covered Entities.” Eligible entities must also commit to
                              avoiding duplicate discounts or rebates, preventing drug diversion and
                              providing the Health and Human Services’ (HHS) Secretary and

O E I - 05 - 02 - 0 0 0 7 1   DE F I C I E N C I E S   IN THE   3 4 0 B D R U G DA T A B A S E
                                                                                                       1
I   N      T      R      O        D   U      C        T      I      O       N


                                          manufacturer access to its records related to its compliance with 340B
                                          requirements.
                                          Once PAB receives, verifies, and processes the registration form, the
                                          entity is listed in the electronic database and is eligible to purchase drugs
                                          at the 340B price. The PAB Web site stresses the importance of entities
                                          supplying the agency with accurate and up-to-date information,
                                          particularly the exact name and street address. PAB states that, “It is
                                          the responsibility of each covered entity to contact the PAB with any
                                          changes.”
                                          The 340B Drug Discount Program’s database is intended to serve as a
                                          centralized source of contact information for those entities registered to
                                          participate in the discount program. The database lists the facility name,
                                          address, type of entity, date added to the database, and date terminated
                                          from participation.
                                          It is crucial that the roster contain exact information on the identity of
                                          the entities because it is the source wholesalers and manufacturers
                                          consult to verify the entity's participation in the program, as well as its
                                          address. Manufacturers need to confirm that the entity's reported
                                          address matches that in the 340B database before shipping the
                                          discounted drugs. Furthermore, an accurate database helps prevent
                                          potential diversion of drug products.
                                          Any incorrect information in the database compromises both the
                                          participants and the manufacturers. If the contact information on an
                                          eligible entity is wrong, a manufacturer may have to delay shipping the
                                          product until it can verify the correct information. If an entity is eligible
                                          for the discount, but is not listed, they could be overcharged because
                                          manufacturers do not have to offer the 340B discount.
                                          Conversely, manufacturers may face other consequences if their products
                                          are sold to ineligible clinics at the 340B price. The integrity of the 340B
                                          program is weakened if prohibited transactions occur. For example, if a
                                          manufacturer discovers sales to entities not eligible for the 340B discount
                                          or to entities that are eligible to enroll but have yet to do so, the 340B
                                          contract is violated, damaging the reputation of the program.
                                          In addition, if a manufacturer sells a drug at the 340B price to a non-
                                          eligible entity, it may accidentally set a “best price” (BP), which is part of
                                          the formula used to calculate a manufacturer's rebate owed to the State
                                          Medicaid agencies. Manufacturers must report their lowest selling price,
                                          or BP, each quarter to the Centers for Medicare & Medicaid Services

    O E I - 05 - 02 - 0 0 0 7 1           DE F I C I E N C I E S   IN THE   3 4 0 B D R U G DA T A B A S E
                                                                                                                        2
I   N      T      R      O        D   U      C        T      I      O       N


                                          (CMS) for the purpose of the Medicaid Drug Rebate Program. Sales to
                                          340B entities are exempt from this calculation.
                                          PAB estimates that participation in the 340B discount program is
                                          growing at an annual rate of 12 percent. The program’s rapid growth is
                                          partially due to the HHS’s pharmacy demonstration projects that allow
                                          entities to develop new ways to purchase drugs and serve patients. In
                                          addition, the President's Community Health Center expansion initiative,
                                          which plans to add 1,200 new and expanded health center sites eligible
                                          for the 340B discount, will significantly impact the number of eligible
                                          participants, giving added importance to the need for an accurate
                                          database.


                                          METHODOLOGY
                                          As part of our data collection effort in the report, Appropriateness of 340B
                                          Prices (OEI-05-02-00070), we selected a random sample of 75 plus 10
                                          spare 340B entities out of 4,246 using the information contained in the
                                          PAB database. To ensure the delivery of our data requests, we attempted
                                          to verify the addresses and participation of the selected entities through
                                          telephone calls and Internet searches. Ultimately, we requested data
                                          from 76 entities, accessing one of the spares.
                                          In addition, we interviewed nine pharmaceutical manufacturers about
                                          their role in the 340B Drug Discount Program. These manufacturers
                                          were selected, based on geographic convenience, but are all major, billion-
                                          dollar corporations and comprise over 40 percent of the total prescription
                                          sales market. 1 During those interviews, much of the conversation focused
                                          on the issues that manufacturers face using the 340B database. We did
                                          not independently verify the nine manufacturers' reported difficulties;
                                          however, the comparable responses among the nine were consistent with
                                          our experience in attempting to use the data for our own analysis.
                                          Our review was conducted in accordance with the Quality Standards for
                                          Inspections issued by the President's Council on Integrity and Efficiency.




    O E I - 05 - 02 - 0 0 0 7 1           DE F I C I E N C I E S   IN THE   3 4 0 B D R U G DA T A B A S E
                                                                                                                   3
�         F I N D I N G S 



                                                         Twenty-nine of the 76 sampled
Thirty-eight percent of sampled entities are             entities, or 38 percent, were listed in
    incorrectly listed in the 340B database as           the database as participants, but
      participating in the 340B Drug Discount            reported not using the 340B discount.
                                         Program.        These entities may have enrolled in
                                                         the program at some point since its
                   start in 1992, but reported that they no longer participate. Therefore,
                   these providers are registered in the database as covered entities, but are
                   not actually purchasing drugs at the 340B discount. This also indicates
                   that entities are either not providing a drug benefit or purchasing their
                   drugs at regular market prices. Table 1 illustrates the entities’ reported
                   reasons for ineligibility.

                                         Table 1- Entities with Inaccurate 340B Participation Listing in the
                                         Database

                                         Number of                           Reported Reasons for Non-participation
                                         Entities with
                                         Incorrect
                                         Status (29)

                                         16                                  Entities reported purchasing pharmaceuticals, but
                                                                             not through the 340B Drug Discount Program

                                         1                                   Receive drugs from a larger 340B participant, but
                                                                             do not purchase drugs themselves

                                         12                                  Entities offer no pharmacy services



                              Failure to fully participate in the 340B discount program reduces the
                              scope of the entities’ health care services and makes inefficient use of
                              HRSA grant funds. According to PAB, the database’s information on an
                              entity’s address and participation status is only as good as the
                              information they receive.2 PAB enters an entity’s information when it
                              registers for the 340B discount, but then relies on the entity to voluntarily
                              provide any changes. If the health care provider has had leadership or
                              pharmacy staff turnover, it might not be aware of the benefits the 340B
                              discount program offers.
                              From the pharmaceutical manufacturers’ perspective, accurate
                              information on an entity’s participation status in the 340B database is
                              important for two reasons. First, if the entity is eligible to purchase at
                              the 340B price, but is excluded from the 340B database, the
O E I - 05 - 02 - 0 0 0 7 1   DE F I C I E N C I E S   IN THE   3 4 0 B D R U G DA T A B A S E
                                                                                                                                 4
F    I    N       D      I        N   G     S


                                          manufacturer risks charging that entity more than the 340B ceiling
                                          price. Second, sales to ineligible entities place manufacturers in a
                                          vulnerable position for fraud and diversion.
                                                                                               During data
                                          The 340B database had incorrect address              collection for our
                                  information for 43 percent of sampled entities.              inspection,
                                                                                               Appropriateness of
                                       340B Prices (OEI-05-02-00070), we found that of our sample of 85 entities
                                       (75 plus 10 spares), 37 entities, or 43 percent, of the addresses listed in
                                       the 340B database were incorrect. According to interviews with
                                       pharmaceutical manufacturers, the database’s incorrect entity contact
                                       and address information hinders their ability to efficiently manage 340B
                                       contracts.
                                          The 340B database needs to have correct address information to confirm
                                          that only participating facilities and their patients have access to drugs
                                          purchased at the 340B price. While manufacturers maintain their own
                                          listing of their 340B contracts, they use the 340B database as the official
                                          source to compare and update their information each quarter. If an
                                          entity’s contact and address information does not match the
                                          manufacturer’s listing, the manufacturer has to take additional time to
                                          obtain accurate information. According to the manufacturers, this extra
                                          effort creates product delivery delays for the 340B entities.
                                          According to the manufacturers, because the 340B database is a
                                          cumulative list that does not separate those entities newly added to or
                                          deleted from the previous quarter, to locate new participants or detect
                                          deletions, they must sort through the entire list of 10,500 entities each
                                          quarter.



         The 340B database does not provide essential               The 340B database does not
                                                                    include complete entity address
              information on entities’ billing and shipping 	
                                                                    information, which is necessary
                                              arrangements.
                                                                    to identify the eligibility of the
                         entity, as well as confirm that the address is legitimate prior to shipping
                         product.
                                          HRSA permits entities to have arrangements with affiliated retail
                                          pharmacies or hospitals, as long as those arrangements are documented
                                          in writing to PAB. However, the complexity of the drug distribution



    O E I - 05 - 02 - 0 0 0 7 1           DE F I C I E N C I E S   IN THE   3 4 0 B D R U G DA T A B A S E
                                                                                                                      5
F    I    N       D      I        N   G     S


                                          system is not reflected in the design of the 340B database and confuses
                                          manufacturers.
                                          The “entity address” field lists the address submitted on the entity’s grant
                                          application, but, due to the variety of drug delivery arrangements among
                                          340B entities, the listed address may not be where the bill is sent or
                                          where the product is shipped. An eligible entity may order
                                          pharmaceuticals, but have them shipped to a retail pharmacy that
                                          distributes the drugs to the entity’s patients. Alternatively, a hospital
                                          may order products on behalf of its affiliated entities. Frequently, the
                                          address listed on the Web site is actually the grantee’s administrative
                                          office or a post office box where bills are sent, but not products.
                                          HRSA allows for 340B qualified entities without on-site pharmacies to
                                          contract out their pharmacy services. In this arrangement, the entity is
                                          billed for the drugs, but the pharmacy receives the shipment and
                                          dispenses the prescriptions to the entity’s patients. Covered entities
                                          contracting with a retail pharmacy are required to supply PAB with a
                                          signed self-certification, documenting their agreement so drug
                                          manufacturers and wholesalers recognize the arrangements. However,
                                          the 340B database does not include a field that clearly identifies those
                                          entities with a contracted pharmacy arrangement. As a result,
                                          manufacturers have to search PAB’s separate “Contract Pharmacy”
                                          database to ensure that their products are both appropriately procured by
                                          an eligible entity and then sent to the appropriate address. Only after
                                          identifying the entities with contract pharmacy arrangements can the
                                          manufacturer return to the entity database to verify that the
                                          arrangement exists.
                                          The database also does not define or link related entities with purchasing
                                          associations, such as a large public hospital and its smaller satellite
                                          clinics, making it difficult to discern which entity is billed and which
                                          receives the shipment. When a hospital orders and pays for drugs, but
                                          has them shipped to other eligible sites, manufacturers need to be aware
                                          of this arrangement so they can verify that the other sites are eligible.




    O E I - 05 - 02 - 0 0 0 7 1           DE F I C I E N C I E S   IN THE   3 4 0 B D R U G DA T A B A S E
                                                                                                                    6
� R   E C O M M E N D A T I O N S 




                                    RECOMMENDATION
                                    To ensure accurate and timely information on the entities' locations and
                                    participation status, HRSA should develop a strategic plan for managing
                                    the 340B program's data that:


                                    �        revalidates all of the information currently in the 340B database

                                    �	       requires all participating entities to resubmit their 340B registration
                                             forms to PAB annually to ensure continued accuracy
                                    �	       creates a separate listing of entities newly added or deleted from the
                                             roster each quarter to facilitate the efficient transition of information
                                             to the manufacturers
                                    �	       establishes a standard format for reporting entities' addresses, which
                                             clearly identifies the appropriate “ship to/bill to” arrangements and
                                             does not include post office boxes
                                    �	       creates a field that designates entities with a contracted pharmacy
                                             arrangement




      O E I - 05 - 02 - 0 0 0 7 1   DE F I C I E N C I E S   IN THE   3 4 0 B D R U G DA T A B A S E
                                                                                                                    7
� A     G E N C Y                           C O M M E N T S 





                                AGENCY COMMENTS
                                HRSA’s comments on the draft report concur with all but one of the
                                findings and all of the recommendations. The complete text of the
                                comments is in Appendix A. HRSA also provided technical comments
                                on the reports.
                                HRSA has already taken action in response to two of our
                                recommendations. First, HRSA is updating the Web site’s entity
                                contact information and participation status in real time as opposed to
                                the former, once-quarterly update. Second, HRSA linked the covered
                                entities and contract pharmacy databases to clearly delineate the
                                contractual relationships. We commend HRSA for its actions to
                                strengthen the integrity of the database, as well as the administration
                                of the 340B Drug Discount Program.
                                HRSA expressed the desire to implement our recommendation to
                                annually recertify entities enrolled in the discount program, but cited
                                the need to first identify resources and protocol required to achieve this.
                                During this consideration, we propose that HRSA consider its
                                Pharmacy Support Services Contract that HRSA awarded to the
                                American Pharmacists Association in September 2002 as a potential
                                resource for accomplishing this task. Since HRSA also stated that it
                                might be necessary to publish a Federal Register notice to announce a
                                new annual certification requirement, we hope they will concurrently
                                determine whether this action is necessary.
                                HRSA disagreed with part of one finding that states manufacturers
                                could inadvertently set a lower than intended price if they offered a
                                340B discount to an excluded entity. According to HRSA, as long as the
                                entity received a grant or met other eligibility criteria the manufacturer
                                would not set a new best price. We agreed with this clarification and
                                made the appropriate changes to the report.




  O E I - 05 - 02 - 0 0 0 7 1   DE F I C I E N C I E S   IN THE   3 4 0 B D R U G DA T A B A S E
                                                                                                          8
� A              P P E N D I X                                     ~          A 





 O E I - 05 - 02 - 0 0 0 7 1   DE F I C I E N C I E S   IN THE   3 4 0 B D R U G DA T A B A S E
                                                                                                  9

A    P      P      E       N      D   I      X       ~       A




    O E I - 05 - 02 - 0 0 0 7 1           DE F I C I E N C I E S   IN THE   3 4 0 B D R U G DA T A B A S E
                                                                                                             10

A    P      P      E       N      D   I      X       ~       A




    O E I - 05 - 02 - 0 0 0 7 1           DE F I C I E N C I E S   IN THE   3 4 0 B D R U G DA T A B A S E
                                                                                                             11

A    P      P
�           A EC NK DN I OX W~ AL E D G M E N T S

                                  This report was prepared under the direction of William C. Moran,
                                  Regional Inspector General for Evaluation and Inspections in the Chicago
                                  Regional Office, and Natalie Coen, Deputy Regional Inspector General.
                                  Other principal Office of Evaluation and Inspections staff who contributed
                                  include:
                                  Thomas Komaniecki, Team Leader

                                  Madeline Francescatti, Project Leader

                                  Anna Fleming, Program Analyst

                                  Rupal Patel, Program Analyst

                                  Genevieve Nowolinski, Program Specialist

                                  Ayana Everett, Program Specialist

                                  Barbara Tedesco, Mathematical Statistician




    O E I - 05 - 02 - 0 0 0 7 1   DE F I C I E N C I E S   IN THE   3 4 0 B D R U G DA T A B A S E
                                                                                                       12
 � E                          N D   N O T E S 




                                     1Prescription  Drug Trends-A Chartbook Update, Kaiser Family
                                           Foundation, November 2001

                                     2   OIG interview with Pharmacy Affairs Branch, June 2003




O E I - 05 - 02 - 0 0 0 7 1          DE F I C I E N C I E S   IN THE   3 4 0 B D R U G DA T A B A S E   13
